< *

No.
IN THE SUPREME COURT OF THE UNITED STATES
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
PETITIONERS
v.
ESTEBAN ALEMAN GONZALEZ, ET AL.

WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
PETITIONERS
v.
EDWIN OMAR FLORES TEJADA, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 4th
day of September, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7403
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 4,2020.

citor General
mg
Counsel of Record
Department of Justice
Washington. D.C. 20530-0001
(202)514-2217
September 4, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

f *

WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
ESTEBAN ALEMAN GONZALEZ, ET AL.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.
EDWIN OMAR FLORES TEJADA, ET AL.
JUDAH LAKIN
MARC VAN DER HOUT
AMALIA WILLIE
VAN DER HOUT LLP
180 SUTTER STREET
FIFTH FLOOR
SAN FRANCISCO, CA 94104
JUDAH@LAKINWILLIE.COM
ALISON PENNINGTON
LIS4 KNOX
JESSES NEWMARK
CENTRAL LEGAL DE LA RAZA
3400 E. 12th STREET
OAKLAND, CA 94601
MATTHEW H. GREEN
LAW OFFICE OF MATTHEW H. GREEN
130 WEST CUSHING STREET
TUCSON, AZ 85701
VASUDHA TALLA
ACLU FOUNDATION OF NORTHERN
CALIFORNIA
39 DRUMM STREET
SAN FRANCISCO, CA 94111
MICHAEL KAUFMAN
ACLU FOUNDATION OF SORTHERN
CALIFORNIA
1313 WEST 8th STREET
LOS ANGELES, CA 90017
BARDIS VALKILI
ACLU FOUNDATION OF SAN DIEGO
AND IMPERIAL COUNTIES
PO BOX 87131
SAN DIEGO, CA 92138-7131

f -

MATT ADAMS
LEILA KANG
AARON KORTHUIS
NORTHWEST IMMIGRANT RIGHTS PROJECT
615 SECOND AVENUE
SUITE 400
SEATTLE, WA 98104
MATT@NWIRP.ORG
LEILA@NWIRP.ORG
AARON@NWIRP.ORG

